TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                  Deficiencies Continue to Exist in Verifying
                  Contractor Labor Charges Prior to Payment



                                      September 19, 2012

                              Reference Number: 2012-11-101




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


  Redaction Legend: 10 = Trade Secret/Confidential Business Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                           HIGHLIGHTS



DEFICIENCIES CONTINUE TO EXIST IN                     review of a sample of $34,306 in travel
VERIFYING CONTRACTOR LABOR                            expenses found that COTRs obtained
CHARGES PRIOR TO PAYMENT                              documentation supporting the travel expenses
                                                      claimed. TIGTA confirmed that the travel
                                                      expenses submitted and paid by the IRS were
Highlights                                            consistent with Federal Travel Regulations.
                                                      Our review also identified that some labor hours
Final Report issued on                                billed and paid were at higher or lower rates
September 19, 2012                                    than established in the contract for the
                                                      qualification level of the individual for whom the
Highlights of Reference Number: 2012-11-101           hours were billed. Finally, TIGTA found that
to the Internal Revenue Service Deputy                although the Contracting Officers verified the
Commissioner for Operations Support.                  qualifications and experience levels of those
                                                      contractor employees who were designated as
IMPACT ON TAXPAYERS                                   key personnel, a similar verification of a random
The IRS received an appropriation of                  sample of the remaining personnel was not
$203 million in American Recovery and                 performed by the responsible COTR as required
Reinvestment Act of 2009 (Recovery Act) funds.        by his or her appointment letter.
TIGTA determined that the IRS did not have            WHAT TIGTA RECOMMENDED
documentation supporting $394,430 of the
invoiced labor hours that were paid. When labor       TIGTA recommended that the Chief,
hours are not adequately verified, there is no        Agency-Wide Shared Services: 1) ensure that
assurance that Recovery Act funds are being           established processes and procedures to verify
used for authorized purposes.                         all labor charges are followed prior to payment,
                                                      2) ensure the validity of all labor charges
WHY TIGTA DID THE AUDIT                               associated with the procurement TIGTA
This audit was initiated because TIGTA is             identified as having a total of $394,430 paid for
required to monitor the IRS’s implementation of       labor charges that were not supported by
Recovery Act provisions. The overall objective        required documentation and initiate actions to
of this review was to assess the IRS’s controls       recover any funds identified as being paid
over contract invoice review, approval, and           erroneously, and 3) ensure COTRs are in
payment processes and to identify improper            compliance with the requirement to perform
payments of Recovery Act funds made to                random checks of resumes of individuals who
contractors.                                          are not considered to be key personnel if this
                                                      requirement is included in their appointment
WHAT TIGTA FOUND                                      letter.
Our review of a statistically valid sample of         IRS management agreed with our
$1 million in labor charges identified that the IRS   recommendations. In response, the IRS has
did not have documentation supporting                 revised receipt and acceptance policies and
$394,430 of the invoiced labor hours that were        procedures, plans to review the labor charges
paid. Applying the results of our analysis to the     associated with the procurement TIGTA
$5.3 million in labor charges for the procurement     identified as having labor charges not supported
in which unsupported payments were identified,        by required documentation, and plans to
TIGTA estimates a total of $927,992 may have          continue to remind the COTRs and their
been erroneously paid. IRS Contracting                management of the importance of the
Officer’s Technical Representatives (COTR) did        appointment letter and that all duties within that
not obtain required documentation supporting all      letter must be fulfilled.
billed labor charges. The unsupported labor
charges relate to work performed by contractor
and subcontractor employees. In contrast, our
                                                  DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 19, 2012


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Deficiencies Continue to Exist in Verifying
                                 Contractor Labor Charges Prior to Payment (Audit # 201210104)

 This report presents the results of our review to assess the Internal Revenue Service’s (IRS)
 controls over contract invoice review, approval, and payment processes and to identify any
 improper payments of American Recovery and Reinvestment Act of 2009 (Recovery Act)1 funds
 made to contractors. This review is included in our Fiscal Year 2012 Annual Audit Plan and
 addresses the major management challenge of Fraudulent Claims and Improper Payments.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of IRS programs.
 This audit was conducted using Recovery Act funds.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have any questions or
 Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                      Deficiencies Continue to Exist in Verifying Contractor
                                Labor Charges Prior to Payment




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Documentation Supporting Labor Charges Was Not
          Always Obtained to Ensure the Validity of the
          Submitted Charges ........................................................................................ Page 6
                    Recommendations 1 through 3:........................................... Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Outcome Measure ................................................................ Page 14
          Appendix V – Management’s Response to the Draft Report ....................... Page 15
        Deficiencies Continue to Exist in Verifying Contractor
                  Labor Charges Prior to Payment




                        Abbreviations

CO                Contracting Officer
COTR              Contracting Officer’s Technical Representative
FAR               Federal Acquisition Regulation
IRS               Internal Revenue Service
TIGTA             Treasury Inspector General for Tax Administration
                    Deficiencies Continue to Exist in Verifying Contractor
                              Labor Charges Prior to Payment




                                              Background

On February 17, 2009, the American Recovery and Reinvestment Act of 2009 (Recovery Act)1
was enacted. The provisions in this law are estimated to cost a total of $787 billion over
11 years. The Recovery Act contains 56 tax provisions—20 individual taxpayer and 36 business
taxpayer provisions. In addition, Congress appropriated $203 million to the Internal Revenue
Service (IRS) to oversee the administration of these tax provisions. This appropriation amount
included $80 million for the Health Coverage Tax Credit program and $123 million to support
tax provision changes cited in the Recovery Act. Additionally, the Treasury Inspector General
for Tax Administration (TIGTA) received $7 million in separate Recovery Act funding through
September 30, 2013, to be used in oversight activities of IRS programs.
The IRS’s Recovery Act funds expired on September 30, 2011. As such, only the funds that
were obligated by the IRS prior to this date are available for the IRS to expend. As of
October 11, 2011, the IRS awarded 25 procurement actions2 to 17 contractor companies for
Recovery Act program initiatives. These actions included procurements for reprogramming IRS
computer systems, updating related tax forms and publications, and providing customer services
to assist taxpayers with the new tax law provisions included in the Recovery Act. The total
contract value of these initiatives was $85.4 million, of which $83.2 million had been disbursed
to various contractors by October 1, 2011.
The IRS follows the same laws, principles, procedures, and practices in awarding and
administering contracts with Recovery Act funds as it does with other funds. However, there are
additional guidelines and requirements for Recovery Act procurements. The Office of
Management and Budget issued a series of supplemental guidance documents that included
requirements for the planning, awarding, and administering of procurements funded by the
Recovery Act. These requirements include ensuring qualified personnel oversee procurements,
ensuring the timely expenditure of funds, and minimizing cost overruns and improper payments.
Figure 1 provides a summary of the Recovery Act procurement expenditures by category.




1
 Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
 For the purposes of this report, procurements include contracts and task orders, or delivery orders issued against
existing contracts. Procurement actions are oral or written statements, or a step taken, that result in the formation or
modification of a procurement.
                                                                                                                Page 1
                     Deficiencies Continue to Exist in Verifying Contractor
                               Labor Charges Prior to Payment




              Figure 1: Summary of Recovery Act Procurement Expenditures

            Fiscal Year             Labor             Products3            Travel            Fixed Fees4
                2009              $7,495,111           $2,484,010            $339,550           $474,782
                2010             $37,353,029           $7,755,552          $2,937,537         $2,031,791
                2011             $17,479,311           $2,557,927          $1,417,027           $899,076

               Total             $62,327,451          $12,797,489          $4,694,114         $3,405,649

              Total Recovery Act Expenditures Through Fiscal Year 2011                      $83,224,703
        Source: IRS contract files and financial records.

Processing invoices for payment – labor and travel expenses
Labor Expenses – Payments to contractors are based on the IRS’s receipt of an invoice
(contractor’s bill or written request for payment) and confirmation of satisfactory contractor
performance. The Federal Acquisition Regulation (FAR)5 requires contractors to account for
costs appropriately and to maintain records, including supporting documentation, adequate to
demonstrate that costs claimed on invoices have been incurred.6 For example, for some types of
procurements, the FAR requires the contractor to substantiate invoices for labor hours, including
any subcontractor labor hours.7 Substantiation includes:
         Individual daily job timekeeping records.
         Records that verify the employees meet the qualifications for the labor categories
          specified in the contract.




3
  Products include hardware and software expenses and other direct costs incurred by the contractor.
4
  Contracts pay a predetermined fee that was agreed upon at the time the contract was awarded to the contractor.
5
  48 C.F.R. ch. 1.
6
  FAR § 4.803, § 31.201-2, and § 52.232-7.
7
  A subcontractor is an entity that is awarded a portion of an existing contract by a prime contractor. The
subcontractor performs work under a contract with a prime contractor, rather than with the agency that hired the
prime contractor.
                                                                                                            Page 2
                    Deficiencies Continue to Exist in Verifying Contractor
                              Labor Charges Prior to Payment




A key control in the validation of labor charges is ensuring qualified personnel oversee
procurements. Both the Contracting Officer (CO)8 and Contracting Officer’s Technical
Representative (COTR)9 play a critical role.10 For example, IRS guidelines caution COTRs to
maintain a close and careful check on the number of labor hours incurred by the contractor’s
employees. The COTRs are required to ensure:
        Hourly labor rates (including wages, indirect costs, general and administrative expenses,
         and profit) being charged are the same as specified in the contract.
        Timekeeping records have been provided substantiating the labor hours billed.
        Labor hour calculations can be verified by multiplying the appropriate hourly rate in the
         contract by the number of direct labor hours performed.
        Labor hours incurred to perform the tasks were completed by employees qualified under
         that specific labor category.
Travel Expenses – Allowable costs for contractor travel expenses are governed by the FAR
travel cost principle.11 The Federal Travel Regulation12 requires that airline, lodging, and rental
car receipts be maintained to support travel expenditures and that reimbursement be based on the
actual cost not to exceed the per diem (daily subsistence) rate or other required cost limitation
policies. IRS COTRs are required to ensure travel expenses sent for reimbursement are within
reimbursement guidelines and are properly supported by receipts.
This audit is a continuation of our oversight of the IRS’s Recovery Act procurement activities.
This review was performed at the IRS Office of Procurement, Agency-Wide Shared Services, in
Oxon Hill, Maryland; the Modernization and Information Technology Services organization in
New Carrollton, Maryland; Wage and Investment Division program offices in Atlanta, Georgia;
and the Offices of the Chief Financial Officer in Beckley Finance Center, West Virginia, during
the period February through June 2012. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit


8
  The Contracting Officer is an IRS employee who is responsible for ensuring performance of all necessary actions
relating to the contract, including ensuring contractors are complying with contract terms.
9
  The Contracting Officer’s Technical Representative is an IRS employee whose role is to provide technical
oversight relating to the contract, including ensuring that the Government pays only for the services, materials, and
travel authorized and delivered under the contract.
10
   While there is essentially no direct legal relationship between the Government and subcontractors, COs play a
key role in subcontract oversight because they are responsible for the overall prime contract price and performance.
11
   FAR 31.205-46.
12
   41 C.F.R. ch. 300–304.
                                                                                                              Page 3
                Deficiencies Continue to Exist in Verifying Contractor
                          Labor Charges Prior to Payment




objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 4
                    Deficiencies Continue to Exist in Verifying Contractor
                              Labor Charges Prior to Payment




                                        Results of Review

We reviewed a statistically valid sample of $1 million in labor charges invoiced and paid in
Calendar Year 2011. Our review included two procurements from a universe of 25 Recovery
Act procurement actions reflected on the October 11, 2011, Financial Activity Report, generated
from the IRS’s Integrated Financial System. We selected these two procurements as they had the
highest dollar values based on our sampling criteria. The labor hour charges for these two
procurements had a total value of approximately $5.6 million.13
Based on our review, we identified that the IRS did not have documentation supporting
$394,43014 in labor charges. Applying the results of our analysis to the $5.3 million in labor
charges for the procurement in which we identified unsupported payments, we estimate that there
could be another $533,562 in unsupported labor charges, for a total of $927,992 that may have
been erroneously paid. The COTRs did not obtain required documentation supporting all billed
labor charges. The unsupported charges relate to work performed by both prime contractor
employees and subcontractors used by the prime contractor. In contrast, our review of a sample
of $34,306 in travel expenses found that the COTRs obtained documentation supporting the
travel expenses claimed. We confirmed that the travel expenses submitted and paid by the IRS
were consistent with Federal Travel Regulations.
Our review also identified that some labor hours billed and paid were at higher or lower rates
than what were established in the contract for the qualification level of the individual for whom
the hours were billed. Finally, we found that although the COs verified the qualifications and
experience levels of those contractor employees who were designated as key personnel, a similar
verification of a random sample of the remaining personnel was not performed by the
responsible COTR as required by his or her appointment letter.15 Without this verification, the
IRS is unable to ensure that the labor hours incurred for tasks specified in the contract are being
performed by employees who meet qualifications specified in the contract.
To meet the commitment to spend Recovery Act dollars with an unprecedented level of
transparency and accountability, the President established five broad requirements that all
agencies must follow. The third requirement is that Federal agencies ensure Recovery Act funds
are used for authorized purposes and that every step be taken to prevent instances of fraud,


13
   The labor hours for the two procurements reviewed were $5,363,143 and $189,952, respectively, for a total of
$5,553,095. We rounded this figure to $5.6 million.
14
   The unsupported labor charges identified all related to one of the two procurements we reviewed.
15
   The COTR appointment letter is the official document in which the COTR is informed that his or her duties,
responsibilities, and obligations are limited to those articulated in the appointment letter and must be exercised in
accordance with agency policies.
                                                                                                                Page 5
                  Deficiencies Continue to Exist in Verifying Contractor
                            Labor Charges Prior to Payment




waste, and abuse. In our review, we found that IRS COs and COTRs did not take the required
steps to ensure the validity of labor hours billed prior to payment.

Documentation Supporting Labor Charges Was Not Always Obtained
to Ensure the Validity of the Submitted Charges
Our review determined that the IRS did not administer procurements funded by the Recovery
Act in accordance with Office of Management and Budget Recovery Act guidance, relevant FAR
provisions, and IRS policies and procedures. We determined that the COTRs who were
responsible for the oversight of Recovery Act procurements did not always ensure
documentation was received supporting billed labor charges. The unsupported labor charges
related to work performed by both prime contractor employees and subcontractors used by the
prime contractor. When we brought this concern to IRS management’s attention, they responded
that although they receive invoices totaling subcontractor labor charges, they did not ensure
supporting documentation was obtained for these charges prior to payment. For the unsupported
labor charges relating to the prime contractor employees, the IRS incorrectly identified these
individuals as subcontractors and, as such, no support was obtained. This is not in compliance
with IRS internal guidance, which states that an invoice by itself is not sufficient documentation
to support charges.
The lack of verification of labor charges prior to payment is a continued deficiency reported by
the TIGTA. Prior TIGTA reports16 have identified that the IRS does not verify that charges
submitted for vendor invoices are accurate and allowable. For example, one report identified
that contractors did not provide adequate documentation to support invoice charges, and another
identified that the IRS paid for unallowable labor and travel charges. The TIGTA’s
recommendations in these reports addressed the need for the IRS to enhance its reviews of
vendor invoice submissions and recover any unsupported charges that constituted improper
payments to the contractor. Many of these recurring findings relate to inadequate monitoring of
procurements by the IRS Office of Procurement’s COs and the program offices’ COTRs.

Labor rates used were not always in agreement with contract terms
IRS guidelines require that labor rates charged (including wages, indirect costs, general and
administrative expenses, and profits) are in agreement with contract requirements. Our review
identified that some labor charges billed and paid were at a higher or lower rate than established
in the terms of the contract. Of the approximately $1 million in labor charges we reviewed, we
identified $26,048 in labor charges that were higher than the established rate and $28,604 in
labor charges that were lower than the established rate. For example:

16
  TIGTA, Ref. No. 2000-10-028, Cost Savings Can Be Achieved Through Improved Monitoring of the Treasury
Communications System Contract (Feb. 2000) and TIGTA, Ref. No. 2004-10-174, Audit of the Asset Seizure and
Forfeiture Program Contract (Sept. 2004).
                                                                                                     Page 6
                   Deficiencies Continue to Exist in Verifying Contractor
                             Labor Charges Prior to Payment



        Employee A, who is an Information Technology Specialist on the contract, was listed in the
        contract schedule at a labor rate of **10** per hour. However, on one invoice we reviewed, this
        individual’s labor was billed at **10** per hour—or **10** higher per hour than specified in the
        contract.
        Employee B, who is a Senior Information Technology Specialist on the contract, was listed in the
        contract schedule at a labor rate of **10** per hour. However, on one invoice we reviewed, this
        particular individual’s labor was billed at **10** per hour—or **10** lower per hour than
        specified in the contract.
Erroneous acceptance of the labor rates billed resulted from the COTRs failing to verify labor
rates, indirect costs, and general and administrative expense costs prior to payment. The
responsible COTR indicated that the IRS relies on the Defense Contract Management Agency17
audits to detect billing inaccuracies. However, as required by IRS procurement guidelines,18
COTRs should be ensuring the labor rates charged are in agreement with contract requirements
prior to payment.

Qualification verifications were not performed as required in the COTR
appointment letter
Our review identified that the IRS correctly verified via a resume review the qualifications and
experience levels for all key personnel relating to the contracts we reviewed. Key personnel are
those individuals considered to be essential to the work being performed under the contract. IRS
management noted that the resumes of individuals not considered key personnel were not
required to be reviewed. The majority of personnel relating to the contracts we reviewed were
not considered key personnel. Management indicated that, although not required, qualification
reviews were conducted for at least two employees who were not considered key personnel as a
result of concerns relating to labor hours billed for these individuals.
However, management was incorrect that additional qualification reviews were not required for
individuals who were not considered key personnel. The COTR appointment letter for this
procurement specifically stated that the COTR should conduct random checks of the resumes of
individuals not considered key personnel and notify the CO of any findings of noncompliance.
Without such verification, the IRS cannot be assured that labor charges associated with
individuals not considered key personnel are aligned with the qualifications and experience
levels of these individuals.




17
   This agency monitors contractors’ performance and management systems to ensure that cost, product
performance, and delivery schedules are in compliance with the terms and conditions of the contracts.
18
   IRS “Procurement 101 Reference Guide,” Invoice Checklist.
                                                                                                        Page 7
                Deficiencies Continue to Exist in Verifying Contractor
                          Labor Charges Prior to Payment




Recommendations
The Chief, Agency Wide Shared Services, should:
Recommendation 1: Ensure established processes and procedures to verify all labor charges
are followed prior to payment.
       Management’s Response: IRS management agreed with this recommendation. In
       March 2012, the Chief Financial Officer developed and disseminated both a User Guide
       and a Manager Guide to assist business units in performing and monitoring Receipt and
       Acceptance according to established guidelines, processes, and controls. In addition, the
       IRS has conducted numerous training workshops, revised receipt and acceptance policies
       and procedures, and performed internal reviews of approximately 1,200 contract files to
       ensure Receipt and Acceptance procedures were followed.
Recommendation 2: Ensure the validity of all labor charges associated with the procurement
we identified as having a total of $394,430 paid for labor charges that were not supported by
required documentation. Actions should be initiated to recover any funds identified as being
paid erroneously.
       Management’s Response: IRS management agreed with this recommendation. The
       Office of Procurement Policy’s Cost and Price Branch will review the labor charges
       associated with TIRNO-06-D-0000 task order to ensure all labor charges associated with
       the identified procurement are valid.
Recommendation 3: Ensure COTRs are in compliance with the performance of random
checks of resumes of individuals not considered key personnel if this requirement is included in
their appointment letter.
       Management’s Response: IRS management agreed with this recommendation. The
       Office of Procurement will continue to remind the COTRs and their management of the
       importance of the appointment letter and that all duties within that letter must be fulfilled.




                                                                                              Page 8
                      Deficiencies Continue to Exist in Verifying Contractor
                                Labor Charges Prior to Payment




                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the IRS’s controls over contract invoice
review, approval, and payment processes and to identify any improper payments of American
Recovery and Reinvestment Act of 2009 (Recovery Act)1 funds made to contractors. To
accomplish our objective, we:
I.         Determined the IRS’s invoice verification (hereafter referred to as receipt and
           acceptance) process from invoice receipt through certifying the invoice for payment to
           the contractor. In addition, we determined if there were any concerns about specific
           contractors’ invoices or billing practices.
           A. Obtained an understanding of the IRS’s receipt and acceptance process through
              analysis of the applicable laws, regulations, and guidance.
           B. Interviewed IRS procurement and program office personnel to confirm our
              understanding of the receipt and acceptance process; current invoice review,
              processing, and approval practices; and the separation of duties structure currently in
              place for those IRS personnel performing these responsibilities. We asked these same
              personnel if they had any concerns regarding a specific contractor, its billing practices
              (e.g., consistently billed unallowable charges), or specific invoices.
           C. Obtained the COTR appointment letter/delegation of authority for our selected
              procurements (see Objective II) as prepared by the CO to verify official authorization
              and duties of the COTR.
           D. Reviewed recent TIGTA, Government Accountability Office, and Defense Contract
              Audit Agency audit reports that may include adverse conditions concerning the
              accounting system or billing practices of the contractors involved in the procurements
              selected in Objective II.
           E. Assessed the reliability of the Integrated Financial System computer-processed data
              and determined that the data are sufficiently reliable to use for our audit tests. The
              IRS Integrated Financial System is an established financial system used by the IRS to
              account for expenditures. We determined that all transactions in the data extracted
              were within our audit period.



1
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                                Page 9
                   Deficiencies Continue to Exist in Verifying Contractor
                             Labor Charges Prior to Payment




        F. We obtained the universe of 25 Recovery Act procurement actions reflected on the
           October 11, 2011, Financial Activity Report, generated from the Integrated Financial
           System. Our review focused on labor charges and travel expenditures. The following
           determination was used to select procurements for our statistical sample:
             1. One procurement was removed from our universe because no payments had been
                disbursed on this procurement as of September 30, 2011.
             2. Thirteen procurements were excluded from our review because these charges
                solely involve the delivery of products (generally hardware and software), which
                we considered to be less of a risk.
             3. Four procurements were excluded because they were a fixed-price type contract
                in which the labor was all inclusive in the total procurement cost.
             4. The remaining seven procurements ranged in obligated value from a low of
                $4,838 to a high of $79,318,721. We selected the two procurements with the
                highest obligated value as our audit universe subject to statistical sampling.
II.     Verified that labor charges and travel expenses submitted by the contractors and paid by
        the IRS are accurate, supported, allocable, and allowable costs.
        A. Obtained a list of all invoices approved for payment on our two selected contractors
           (selected procurements from Step I.F.) during our audit period. For the first
           contractor, we reviewed all labor charges and travel expenses during our audit period.
           For the second contractor, we took a statically valid sample of labor and travel
           charges. We reviewed $34,306 (11 percent) out of $306,638 in travel charges and
           $1 million (approximately 20 percent) out of $5.3 million in labor charges for the
           second contractor.2
        B. For the invoices included in the sample, we confirmed through Integrated Financial
           System outputs the actual amount paid to the contractor.
        C. For the invoices included in our sample, we obtained all supporting documentation
           from the IRS or, if necessary, from the contractor and traced all invoice charges to
           supporting documentation. To determine if the invoice charges were accurate,
           allowable, and allocable we:
             1. Traced all labor charges and travel expenses to supporting documentation.



2
  We reviewed all labor charges and travel expenses for the first contractor because there were only two contractor
employees who billed time across six invoices. For the second contractor, there were more than 400 employees who
charged time to the contract. Audit resources drove the decision to sample rather than to do a complete review of
the second contractor.
                                                                                                         Page 10
                   Deficiencies Continue to Exist in Verifying Contractor
                             Labor Charges Prior to Payment




             2. Verified that labor rates and categories were consistent with the terms and
                conditions of the contract.
             3. Verified that overhead fees and other general and administrative costs were
                consistent with the terms and conditions of the contract.
        D. Applying the results of our analysis to our sample population, we projected a value
           for the total unsupported labor costs associated with the procurements in our review.3
        E. Determined whether CO/COTR contract file(s) were properly maintained in
           conformance with the applicable guidance to reflect adequate documentation for
           invoice expenditures and corresponding receipt and acceptance.
        F. Determined whether the contract personnel qualifications (education and experience)
           met contract requirements and were consistent with the labor category reflected in the
           invoice charges and reviewed the COTR’s contract file for key personnel resumes.
        G. Confirmed through discussions with responsible procurement or program office
           personnel the facts surrounding any questioned charges.
        H. Obtained management’s explanation in writing for any unsupported charges that were
           paid and could not be fully explained through discussions with procurement or project
           personnel.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: policies, procedures, and practices issued
by the Office of Management and Budget, the Department of the Treasury, and the IRS Office of
Procurement for the planning, awarding, and administering of procurements funded by the
Recovery Act. This included the policies and procedures for reviewing contractor-invoiced
charges and supporting documentation prior to recommending payment. We evaluated these
controls by interviewing program office, procurement, and financial personnel and by reviewing
contract files and financial reconciliation reports.




3
 Our projection is based on a 95 percent confidence level and a precision (range of) ± $590,966 ($337,026 -
$1,518,958) in unsupported labor charges.
                                                                                                          Page 11
               Deficiencies Continue to Exist in Verifying Contractor
                         Labor Charges Prior to Payment




                                                                             Appendix II

                 Major Contributors to This Report

Nancy Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Alicia P. Mrozowski, Director
John Ledford, Audit Manager
Jonathan Meyer, Audit Manager
Heather M. Hill, Acting Audit Manager
Gary D. Pressley, Lead Auditor
Tom Cypert, Senior Auditor
David Bueter, Auditor
Melvin Lindsey, Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                     Page 12
              Deficiencies Continue to Exist in Verifying Contractor
                        Labor Charges Prior to Payment




                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Acting Commissioner, Tax Exempt and Government Entities Division SE:T
Chief, Agency-Wide Shared Services OS:A
Chief Technology Officer OS:CTO
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief Technology Officer OS:CTO
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Acting Commissioner, Tax Exempt and Government Entities Division SE:T
       Director, Procurement OS:A:P




                                                                               Page 13
                   Deficiencies Continue to Exist in Verifying Contractor
                             Labor Charges Prior to Payment




                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
Questioned Costs (Unsupported Costs) – Potential; $927,992 (see page 5).

Methodology Used to Measure the Reported Benefit:
We reviewed the IRS contract files for the procurements in our audit sample, including invoices
and invoice support, to verify labor charges.
Our review resulted in the identification of $394,430.36 in unsupported labor charges that the
IRS paid. To identify the $394,430.36, we reviewed a statistically valid sample of 100 labor
charges, drawn from a population of 529 labor charges. In 17 (17 percent) of the 100 cases, the
IRS did not request supporting documentation to verify the charges.
We determined the 17 unsupported charges in the sample totaled $394,430.36. However,
because one of the 17 labor charges was an outlier, we removed it from our sample for the
purposes of estimating the total value of unsupported labor charges. We determined that this
charge was an outlier because the charge represented a roll-up of more than 1,200 hours of
employee time that was charged as a lump sum in one monthly invoice. One 30-day month is
made up of 720 hours (30 days times 24 hours a day); therefore, this charge could not
realistically represent charges made by one employee in one month. After the $219,006.52
charge was removed, we used a sample unsupported labor charge value of $175,423.84 to make
our projections. Dividing $175,423.84 by the sample size of 100 results in a sample average of
$1,754.24. By multiplying $1,754.24 by the population of 529, we projected that the IRS may
have paid $927,992.12 in unsupported labor charges.1


                                                          




1
 Our projection is based on a 95 percent confidence level and a precision (range) of ± $590,966 (range $337,026 -
$1,518,958) in unsupported subcontractor charges.
                                                                                                          Page 14
    Deficiencies Continue to Exist in Verifying Contractor
              Labor Charges Prior to Payment




                                                        Appendix V

Management’s Response to the Draft Report




                                                             Page 15
Deficiencies Continue to Exist in Verifying Contractor
          Labor Charges Prior to Payment




                                                         Page 16
Deficiencies Continue to Exist in Verifying Contractor
          Labor Charges Prior to Payment




                                                         Page 17
